FOOD AND BEVERAGE SERVICE:
Potential Opportunities to Reduce Losses




                     Audit Report OIG-A-2014-001 | October 31, 2013
   NATIONAL RAILROAD
   PASSENGER CORPORATION
                                                    Office of Inspector General


                                    REPORT HIGHLIGHTS
Why We Did This Review                              FOOD AND BEVERAGE SERVICE:
                                               Potential Opportunities to Reduce Losses
                                            Audit Report OIG A 2014 001, October 31, 2013
Amtrak’s losses in providing       What We Found
food and beverage services
have been a longstanding issue.     Amtrak has reduced food and beverage service losses from a
From fiscal year (FY) 2006          reported $105 million in FY 2006 to $72 million in FY 2012 by making
through FY 2012, Amtrak’s           incremental changes to the food and beverage business model. We
food and beverage service           estimate that losses could be further reduced by about $10.5 million
incurred direct operating losses    annually by making additional incremental changes to the business
of more than $609 million.          model. For example, aligning onboard staffing on long distance
These losses are covered by         routes with seasonal changes in ridership could have reduced FY
ticket revenues and funds           2012 labor costs by an estimated $6.9 million.
provided to Amtrak by an
annual federal grant.               Outsourcing food and beverage services could have more than an
                                    incremental effect: it could substantially reduce costs. This option
Because of the magnitude of the     would have significant impacts on the workforce of about 1,200
losses, we reviewed the food        personnel. Some implementation costs, such as contributions to
and beverage service to assess      railroad retirement and insurance, could reduce savings; other
the actions taken by Amtrak to      qualitative factors, such as the safety and security responsibilities of
reduce program losses and to        onboard personnel, would also need to be assessed. These issues
determine whether                   notwithstanding, we estimate that outsourcing these services could
opportunities exist to further      reduce labor costs by $51.4 million to $60.5 million annually.
reduce the losses.
                                    We also noted that route managers lack key information to
                                    effectively manage the food and beverage program, such as cost and
                                    revenue by train.
                                    Corrective Actions
                                    To reduce food and beverage losses, we recommend that the
                                    President and Chief Executive Officer direct the Vice President,
                                    Operations, to take the following actions:

                           1.       1. Pilot contracting out food and beverage services on selected routes
                           2.          to determine the qualitative and quantitative costs and benefits.
Focus Area: Train Operations
                           3.       2. Pilot various options to increase efficiency, such as better aligning
and Business Management 4.             staffing and service with customer demand, monitoring sales
For further information    5.          performance of onboard staff, reducing report times, and charging
contact, Dave Warren,      6.          for services now provided on a complimentary basis.
Assistant Inspector General         3. Develop food and beverage cost and revenue data by train, car and
for Audits 202 906 4600                departure date.
                                    4. Ensure that the onboard point of sale system can generate
For the full report, see               relevant business management data.
www.amtrakoig.gov/reading room
                                    In commenting on a draft of our report, Amtrak agreed with the
                                    spirit of our recommendations.
                                                                                         2
                           Amtrak Office of Inspector General
          Food and Beverage Service: Potential Opportunities to Reduce Losses
                             Audit Report OIG-A-2014-001

    Figure 1. Reported Food and Beverage Direct Operating Losses,
                FY 2006 to FY 2012 (dollars in millions)
                   $120.0
                            $105.2
                   $100.0            $92.0
                                             $86.8           $86.8   $86.3
                                                     $80.1
                    $80.0                                                    $72.0

                    $60.0

                    $40.0

                    $20.0

                     $0.0
                            FY 2006 FY 2007 FY 2008 FY 2009 FY 2010 FY 2011 FY 2012


              Source: Finance department, Food and Beverage Marketing Summary Reports,
              FY 2006–FY 2012.
              Note: All figures are reported in 2012 dollars.


Consistent with Amtrak’s strategic plan,4 the company plans to establish six business
lines to improve financial performance. Amtrak plans to establish profit and loss
accountability for each business line, including Northeast Corridor services, state
supported services, and long distance services.5

Our reporting objective is to assess actions taken by Amtrak to reduce operating losses
from the food and beverage service, and also to determine whether opportunities exist
to improve financial performance while providing services to the travelling public.
Given the extent of reported food and beverage losses on long distance routes, we
focused on ways to improve their financial performance; however, some of our findings
also apply to the Northeast Corridor and state supported routes. For a detailed
discussion of our scope and methodology, see Appendix I.

FINANCIAL PERFORMANCE HAS IMPROVED, BUT LOSSES PERSIST
From FY 2006 to FY 2012, food and beverage operating losses decreased by a reported
$33.2 million. Several factors contributed to these reductions, including revenue
increases and efficiency improvement efforts to reduce costs—such as staffing


 Amtrak Strategic Plan FY 2011–FY 2015.
                                                                                                          3
                            Amtrak Office of Inspector General
           Food and Beverage Service: Potential Opportunities to Reduce Losses
                              Audit Report OIG-A-2014-001

reductions, a new commissary contract, and other organizational changes. These actions
were effective, but food and beverage operating losses remained significant—a reported
$72.0 million in FY 2012. As noted in our August 2, 2012 testimony,6 Amtrak’s actions
have resulted in relatively small efficiency gains because they have been applied to the
existing business model for food and beverage service.

Long Distance Train Labor Costs Drive Losses
Long distance routes accounted for 99 percent of food and beverage losses in FY 2012,
as shown in Table 1.

       Table 1. Reported Food and Beverage Direct Operating Loss,
                       FY 2012 (dollars in millions)
                                               Direct Costs
                 Food and                                              Total
                 Beverage       Onboard                               Direct      Profit/     Percentage
Routes            Revenue         Labor        Commissary             Costs        Loss           of loss
Northeast            $36.5        $19.0             $16.7             $35.7         $0.8               -1
Corridor
State-                  32.9           19.0                15.2         34.2        (1.3)a                2
supported
Long-                   63.5           75.3                59.8        135.0       (71.5)             99
distance
 Total               $132.9         $113.2               $91.7       $204.9      ($72.0)           100%
Source: Amtrak Finance Department, Food and Beverage Marketing Report for FY 2012.
Note: Numbers do not all add to totals due to rounding.
a
  Food and beverage operating losses on state-supported routes came from the six routes on which
Amtrak provided food and beverage services, but the states chose not to subsidize operations. Section
209 of the Passenger Rail Improvement and Investment Act of 2008 directed Amtrak, the states, and
other relevant parties to develop and implement a single, nationwide standardized methodology that will
ensure equal treatment of the states by October 16, 2013.


A key factor driving these losses is labor costs, which exceeded revenue on 13 of the 15
long distance routes in FY 2012, as shown in Table 2.7 Labor costs exceeded revenue on
all long distance routes except the Auto Train and the Palmetto.




 Food and Beverage Service: Opportunities Exist to Build on Program Improvement Initiatives
                                                                                                   4
                           Amtrak Office of Inspector General
          Food and Beverage Service: Potential Opportunities to Reduce Losses
                             Audit Report OIG-A-2014-001

   Table 2. Reported Food and Beverage Direct Operating Losses by
         Long-Distance Route, FY 2012 (dollars in thousands)
                           Food and                 Direct Costs
                           Beverage         Onboard               Total Direct
 Route                      Revenue            Labor Commissary         Costs     Loss
 Auto Train                   $9,195          $8,321      $13,969     $22,290 ($13,095)
 California Zephyr             7,633           8,955        7,487      16,442   (8,809)
 Southwest Chief               5,861           7,339        6,631      13,970   (8,109)
 Empire Builder                9,417           9,647        6,149      15,796   (6,379)
 Coast Starlight               7,605           9,001        4,522      13,523   (5,918)
 Sunset Limited                2,274           4,941        2,976       7,917   (5,643)
 Crescent                      2,793           4,278        3,532       7,810   (5,017)
 Texas Eagle                   3,258           4,400        3,388       7,788   (4,530)
 Lake Shore Limited            2,727           3,340        3,020       6,360   (3,633)
 Capitol Limited               2,406           3,277        1,964       5,241   (2,835)
 City of New Orleans           1,747           2,596        1,668       4,264   (2,517)
 Silver Star                   3,380           4,005        1,450       5,455   (2,075)
 Silver Meteor                 3,616           3,738        1,826       5,564   (1,948)
 Cardinal                        785             881          710       1,591     (806)
 Palmetto                        791             533          476       1,009     (218)
  Total                      $63,488         $75,252      $59,770 $135,020 ($71,532)
Source: Amtrak Food and Beverage Summary Report for the year-to-date period ending September 30,
2012, and Route Profitability Statement.
Note: Numbers do not all add to totals due to rounding.


Revenue Increases and Actions to Reduce Costs
From FY 2006 through FY 2012, revenue increases have been the largest contributor to
reducing food and beverage operating losses.

       To contribute to the cost of meals included in the ticket price, Amtrak transfers a
       portion of revenue from sleeper class and Acela first class tickets to the food and
       beverage account, according to officials from Finance and customer service. For
       sleeper class tickets, the amount transferred is based on the menu price of actual
       meals consumed by sleeper passengers on long distance routes. On Acela, it is
       based on an Amtrak calculation of comparable meal prices that business
                                                                                            5
                          Amtrak Office of Inspector General
         Food and Beverage Service: Potential Opportunities to Reduce Losses
                            Audit Report OIG-A-2014-001

      travelers would pay at hotels in four cities served by Acela.8 From FY 2006
      through FY 2012, reported transfers increased by $22.1 million. A customer
      service official stated that it is difficult to precisely determine which factors
      caused increased sleeper car ticket revenue transfers. However, at least part of
      this increase was the result of a May 2011 rise in the amount of Acela first class
      ticket revenues categorized as food and beverage revenues. This update did not
      increase the total revenue that Amtrak receives from customers, but instead
      shifted revenue from the Operations department account to the food and
      beverage account.

      On all routes, onboard cash and credit card sales increased $8.9 million from FY
      2006 through FY 2012.

      Subsidies for state supported routes, which Amtrak counts as revenue, increased
      by $1.2 million from FY 2006 through FY 2012.

In addition, Amtrak has taken these actions to reduce food and beverage losses:

      In October 2008, Amtrak awarded a new warehouse management contract that
      provided greater volume discounts and incentives to control costs in select
      performance areas, according to the Chief of Customer Service. As a result,
      commissary costs decreased by $4.5 million from FY 2006 through FY 2012. This
      net cost reduction demonstrates that purchasing efficiency has improved because
      it occurred at the same time total sales increased by $32.3 million.

      In fall 2011, Transportation officials began implementing staffing efficiencies,
      such as reducing report times for onboard staff. Although labor costs decreased
      by $6.2 million in the first full year after implementing these efficiencies, labor
      costs increased overall by $3.6 million from FY 2006 through FY 2012.9

Organizational Changes
To improve the performance of the food and beverage service, Amtrak management
took a number of organizational actions. For example, until recently, two Amtrak
                                                                                                             6
                            Amtrak Office of Inspector General
           Food and Beverage Service: Potential Opportunities to Reduce Losses
                              Audit Report OIG-A-2014-001

departments shared responsibility for the food and beverage service. As we reported in
September 2012, neither was accountable for reducing direct operating losses, and they
did not effectively coordinate their initiatives to improve financial performance.10 To
address this issue, Amtrak transferred Marketing and Product Development’s food and
beverage activities to Operations on October 1, 2012.

In February 2013, Amtrak filled the recently established position of Chief of Customer
Service, which reports to the Vice President, Operations. The Chief has overall
accountability for improving Amtrak’s food and beverage program. However, the Chief
of Customer Service stated that this position does not control onboard staffing—the key
cost driver in the program. Staffing is controlled by the individual route managers, who
report to the business line managers. In addition, the research and planning office—
which reports to the Vice President, Operations—advises on staffing decisions but does
not control staffing, according to a planning official. As a result, accountability for
improving financial performance is split between these three parties. Because the Chief
of Customer Service does not have the authority to control the entire food and beverage
program, final accountability rests with the Vice President, Operations.

Loss Prevention Unit Established
In response to our June 2011 recommendation, the company established a loss
prevention unit with four dedicated staff and a director.11 According to the unit’s
director, the unit reviews systems, records, and documents, and also observes revenue
transactions to identify problems and limit the risk of fraud. As of May 24, 2013, the
unit reported visiting 155 stations where cash is handled and observing 201 personnel.

Amtrak plans to supplement the unit of five with a nationwide contractor to act as
mystery shoppers to observe onboard food and beverage employees, according to the
unit’s director. Further, as we recommended, Amtrak developed a revenue protection
plan to address weaknesses in the onboard food and beverage service. The plan
includes fraud awareness briefings for onboard food and beverage employees on
program goals, strategies, and metrics to maximize employee compliance with
procedures and policies.




  Food and Beverage Service: Initiatives to Help Reduce Direct Operating Losses Can Be Enhanced by Overall
Plan
  Food and Beverage Service: Further Actions Needed to Address Revenue Losses Due to Control Weaknesses
and Gaps,
                                                                                         7
                          Amtrak Office of Inspector General
         Food and Beverage Service: Potential Opportunities to Reduce Losses
                            Audit Report OIG-A-2014-001

Planned Cashless Pilot
According to the Chief of Customer Service, Amtrak also plans to establish a pilot
project for cashless food and beverage sales, which we recommended. The pilot will be
implemented once the onboard point of sale system can integrate credit card sales.
However, delays from the point of sale contractor have prevented needed software
updates, according to customer service and business operations officials. The last
software update was delivered in August 2013. Amtrak plans to test the new software
during fall 2013 and to pilot a cashless sales system in early 2014, according to customer
service and business operations officials.

OPPORTUNITIES TO IMPROVE MANAGEMENT AND FINANCIAL
PERFORMANCE OF THE EXISTING FOOD AND BEVERAGE
BUSINESS MODEL
Our comparative analysis of Amtrak’s food and beverage service to railroad industry
best practices identified six opportunities to make incremental improvements to the
current business model. These opportunities could reduce losses by about $10.5 million
annually:

       aligning dining car staffing with ridership ($6.9 million)
       improving sales performance of lead service attendants ($1.6 million)
       shortening reporting times for onboard employees ($0.1 million)
       aligning the service with variations in ridership and customer demand
       charging passengers for complimentary items (almost $0.7 million)
       reducing spoilage ($1.2 million)

Better Aligning Dining Car Staffing with Seasonal Changes in Customer Demand

When staffing dining cars, route managers are not required to consider seasonal
changes in customer demand, according to Transportation officials.12 As a result, some
long distance route managers are incurring unnecessary labor costs by maintaining
higher than necessary dining car staffing levels during periods of low customer
                                                                                         8
                          Amtrak Office of Inspector General
         Food and Beverage Service: Potential Opportunities to Reduce Losses
                            Audit Report OIG-A-2014-001

demand. We estimate that 13 long distance routes incurred approximately $6.9 million
in surplus labor costs in FY 2012.13

To assess which route managers are considering seasonal changes in customer demand
when staffing dining cars, we compared dining car revenue with dining car labor hours
for 13 long distance routes in FY 2012. Periods of low revenue per labor hour indicate
possible opportunities to reduce staffing and labor costs. Food and beverage revenue
per labor hour on 13 long distance routes ranged from $25.81 in January to $41.24 in
June—a difference of $15.42 per hour (60 percent), as shown in Figure 2.

 Figure 2. Dining Car Revenue per Onboard Labor Hour, Select Long-
                      Distance Routes, FY 2012
            $45.00
                                                                 $41.24
            $40.00
            $35.00
            $30.00
            $25.00
                                     $25.81
            $20.00
            $15.00
            $10.00
             $5.00
             $0.00
                     Oct 2011       Jan 2012        Apr 2012         Jul 2012

           Source: OIG analysis of Amtrak revenue and labor data.
           Note: The Auto train and the Palmetto were not included in our source data.


On all 13 routes we reviewed, dining car staffing was not reduced when customer
demand was lower during the winter. The Transportation department has guidelines
for dining car staffing, but route managers are not required to use them, and some
choose not to use them, according to Transportation officials.14 For example, in FY 2012,
the Lake Shore Limited operated with at least four dining car staff year round.15 Yet for
                                                                                             9
                          Amtrak Office of Inspector General
         Food and Beverage Service: Potential Opportunities to Reduce Losses
                            Audit Report OIG-A-2014-001

almost seven weeks in January and February 2012, actual ridership never reached the
level specified in the departmental guidelines that would justify a fourth employee. As
a result, food and beverage revenue per labor hour was lowest in January, at $22.98.

Using the yearly peak of $41.24 in revenue per labor hour as a benchmark, we estimate
that 13 long distance trains used approximately $6.9 million in surplus labor in FY 2012.
We calculated this by determining how much labor staffing would need to be reduced
to bring revenue per labor up to $41.24 for FY 2012. We recognize that guaranteed hour
provisions in labor agreements may prevent Amtrak from capturing all of these
savings. For example, the current labor agreement between Amtrak and the Amtrak
Service Workers Council guarantees full time employees 180 hours a month and part
time employees 150 hours a month. If a full time employee is scheduled for 180 hours
per month, reducing the hours would yield no savings.

In addition, a Transportation official stated that the department’s staffing guidelines are
not based on the actual number of coach and sleeper passengers who use the dining car.
The officials told us that the guidelines vary by route based on the requests of route
managers, and they are working to clarify these staffing guidelines using actual dining
car usage rates.

Improving Management of Onboard Staff Could Increase Revenues

Available revenue information shows that the amount of revenue generated by lead
service attendants on the same routes varies widely, indicating that there likely are
opportunities to capture additional food and beverage revenues. However, managers
are not required to use available revenue information to monitor onboard staff
performance and identify opportunities to increase revenues, according to customer
service officials.16 We calculated that every one percent increase in revenue for all lead
service attendants in calendar year (CY) 2012 would have yielded about $1.6 million in
additional revenue system wide.

To assess their sales performance, we obtained revenue data for every lead service
attendant by train and by day. We combined this with ridership on each train to
determine the average sales of lead service attendant per rider. We then compared lead
service attendants on the same routes to determine their relative sales performance. Our
analysis shows that the lead service attendants who produced the highest revenue on
long distance café cars averaged almost double the revenue per rider as those who
                                                                                            10
                          Amtrak Office of Inspector General
         Food and Beverage Service: Potential Opportunities to Reduce Losses
                            Audit Report OIG-A-2014-001

produced the lowest revenue.17 On the Capitol Limited’s café car, for example, revenue
by lead service attendant per rider ranged from $3.69 to $7.61 in CY 2012, as shown in
Figure 3.18

  Figure 3. Reported Revenues by Lead Service Attendant, Per Rider,
                  Capitol Limited Café Car, CY 2012
               $9.00

               $8.00   $7.61
                                                                               Median
               $7.00
                                                                             Revenue Per
               $6.00                                                         Rider, $5.79

               $5.00

               $4.00                                                                $3.69

               $3.00

               $2.00

               $1.00
                                            Lead Service Attendants
                                       Higher Producing / Lower Producing


              Source: Amtrak OIG Analysis of Amtrak revenue and ridership data.

Likewise, on state supported routes the highest revenue producing lead service
attendants averaged almost triple the revenue per rider of the lowest producing lead
service attendants. In CY 2012, for example, the revenues of the Carolinian’s café car by
lead service attendant ranged from $1.41 to $5.41 per rider.19

Transportation officials told us that route managers are not required to use this data to
monitor and help improve revenue generated by lead service attendants. Moreover,
sales targets or incentives are not used with lead service attendants, customer service
officials stated. As a result, higher selling lead service attendants are not rewarded for
good sales, and lower selling attendants are not held accountable and are not coached
to improve sales performance. Best practices show that employee sales incentives can
increase food and beverage revenues. For example, the German rail company provides
                                                                                         11
                          Amtrak Office of Inspector General
         Food and Beverage Service: Potential Opportunities to Reduce Losses
                            Audit Report OIG-A-2014-001

some employees an incentive of up to 15 percent of their salary based on sales
performance. According to German rail officials, sales for these employees are
consistently higher than other employees who are not provided incentives.

It appears there are opportunities to increase revenues by using performance
monitoring tools and employee incentives. For example, a one percent increase in lead
service attendant sales in CY 2012 would have yielded about $1.6 million in additional
revenue. Of this, about $1.0 million would have come from long distance routes and the
Northeast Corridor, and about $0.6 million from state supported routes. According to
the Chief of Customer Service, Amtrak has begun to develop a report for managers to
use in monitoring the sales performance of lead service attendants.

Staff Reporting Times Could be Shortened

We identified an opportunity to reduce costs by shortening reporting times for some
onboard staff. According to Transportation officials, the Transportation department
does not have standard reporting times for onboard service personnel. Each long
distance route manager determines staff reporting times based on operational needs. As
a result, reporting times for onboard staff on the long distance routes vary from one to
five hours before the train’s scheduled departure time.

On three routes we rode, onboard staff reported three to four and a half hours early.20
We observed that some onboard staff completed their required duties in less time than
allotted, resulting in 30 to 60 minutes of free time prior to the train’s departure. In
addition, on three of the routes we rode,21 lead service attendants and chefs counted
their food and beverage inventory twice—once at the commissary and again when it
was loaded on the train.22 Two route managers stated that the double count prevents
theft after lead service attendants and chefs accept responsibility for their stock in the
commissary and before it is loaded on the train. During this period, staff may not have
visibility over the stock.

The Assistant Superintendent in Los Angeles stated that they reduced reporting times
in 2012 and required staff to count food stocks only once. In July 2012, for example, the
Sunset Limited reduced its report times from three to two hours before departure by
                                                                                       12
                          Amtrak Office of Inspector General
         Food and Beverage Service: Potential Opportunities to Reduce Losses
                            Audit Report OIG-A-2014-001

directing the food supply contractor to load trains directly. Lead service attendants and
chefs now check their stock after the train has been loaded. Officials from other
railroads stated that they use this procedure. For example, the food manager for the
New South Wales railroad in Australia stated that their staff report 30 to 45 minutes
before departure because a contractor loads the trains and inventory is only counted
once—when it is delivered.

Transportation officials stated that they have attempted to decrease report times on all
long distance routes, but have sometimes been overridden by route managers.
Shortening reporting times for onboard employees by one hour on three long distance
routes we travelled could reduce labor costs by about $100,000 annually.23 As above, we
recognize that operational differences between routes and guaranteed hour provisions
in labor agreements may reduce the savings from these actions.

Alternative Food and Beverage Services

Our analysis identified opportunities to align the level of food and beverage service
with variations in ridership, customer demand, and financial performance for each
route. Changes could include amending or eliminating the current sit down dining car
service seasonally, on selected routes, or on portions of some routes.

When deciding the level of food and beverage service, considering ridership and
customer demand patterns on individual routes can provide opportunities to improve
financial performance. Currently, route managers retain their base dining car service
year round for the duration of each long distance trip, regardless of customer demand,
according to Transportation officials.24 For example, the Sunset Limited operates
between Los Angeles and New Orleans. On this route, FY 2012 ridership was lowest
between San Antonio and New Orleans, resulting in lower dining car revenue,
particularly during the low ridership season. Low season revenue on the eastbound
train drops on the third day, after the train departs San Antonio, as shown in Figure 4.
                                                                                                13
                          Amtrak Office of Inspector General
         Food and Beverage Service: Potential Opportunities to Reduce Losses
                            Audit Report OIG-A-2014-001

         Figure 4. Reported Dining Car Revenue by Meal Period,
                       Eastbound Sunset Limited,
                      January 2013 (Low Season)
                  $700
                                          $598
                  $600
                  $500
                  $400            $345
                          $303
                  $300                                            $264
                                                          $201
                  $200                            $127
                  $100
                    $0




                Source: Amtrak OIG analysis of lead service attendant revenue data.
                Note: The eastbound Sunset Limited leaves Los Angeles at 10:00 pm, so there is no
                dining service on Day 1.


This sales pattern occurs because the Sunset Limited removes one sleeper car and one
coach car from the eastbound train in San Antonio but maintains the dining car. Despite
this change in carrying capacity, route managers retain three onboard employees and
the same sit down dining car service year round for the duration of the trip, according
to Transportation officials.25 To reduce costs, the Alaska Railroad removes its dining car
and four employees from its trains during the low season. During that time, the railroad
operates a café car staffed with one onboard employee.

The Department of Transportation Office of Inspector General (DOT OIG) also
identified an opportunity to adjust the level of food and beverage service. In July 2005,
DOT OIG reported that removing sleeper cars, dining cars, and other amenities from
long distance routes while still maintaining basic coach service could save $75 million
to $158 million in annual operating costs. DOT OIG recommended that Amtrak
implement multiple pilot projects on its worst performing long distance routes,
including the removal of sleeper and dining cars from service. In commenting on the
report, Amtrak acknowledged that long distance rail service cannot remain viable
                                                                                          14
                           Amtrak Office of Inspector General
          Food and Beverage Service: Potential Opportunities to Reduce Losses
                             Audit Report OIG-A-2014-001

without significant reductions in expenses, and said that Amtrak will be launching a
number of pilot projects to address long distance operating cost issues.26 According to
DOT OIG officials, these recommendations were not implemented because when the
report was released, Amtrak was completing an upgrade of its sleeper car equipment.
The officials said that Amtrak did not want to pilot removing sleeper cars because of
this investment.

Amtrak’s Marketing department has conducted market research of the potential
revenue impact of various options for providing food and beverage services. In 2012,
the department asked 2,495 recent Amtrak customers for their preferences on various
food and beverage options, including reducing or eliminating dining and café car
service. The market research indicated that reducing or eliminating food service, or
charging more for existing service, would reduce ridership and revenue. The study
concluded that Amtrak would lose (1) about 1 million riders and $91 million in ticket
revenue if food service on all short distance routes was eliminated,27 and (2) about
345,000 riders and $93 million in ticket revenue if dining car service was eliminated on
all long distance routes. The study addressed only the potential impact on ridership
and ticket revenues—not the potential cost savings associated with the various
alternatives.

Operational considerations will require a case by case assessment of each route and
season. However, opportunities exist to better align food and beverage service with
customer demand. From FY 2010 to FY 2012, the Marketing department conducted such
an analysis of all 15 long distance routes;28 however, several plans that involved
reducing onboard labor were proposed but not ultimately accepted, according to a
Marketing official.

Charging for Complimentary Food and Beverage Items

Costs could be decreased and revenues potentially increased by charging passengers for
complimentary items. Complimentary wine and champagne are offered as an amenity




 Analysis of Cost Savings on Amtrak’s Long Distance
                                                                                          15
                          Amtrak Office of Inspector General
         Food and Beverage Service: Potential Opportunities to Reduce Losses
                            Audit Report OIG-A-2014-001

to customers in sleeper cars on three long distance routes;29 complimentary wine and
cheese are offered to passengers on the Auto Train. In FY 2012, these complimentary
offerings cost about $428,000, according to a customer service official.30 Also, Amtrak
procedures allow individuals on personal travel using an employee pass to receive free
meals on the Auto Train if their ticket is free.31 In FY 2012, employee pass riders on free,
personal travel consumed about $260,000 in meals on the Auto Train.32 Employees on
personal travel also received some undetermined amount on the other long distance
routes, according to a revenue management official.

Improve Food and Beverage Inventory Management to Reduce Spoilage

We identified opportunities to improve inventory management practices and reduce
spoilage costs. In FY 2012, food and beverage spoilage accounted for about $3.1 million
(8.3 percent) of the about $37.9 million in food and beverages sold onboard.33 The
experience of another railroad shows that lower spoilage rates are possible. For
example, the Great Southern Rail in Australia has a food spoilage rate of about 5
percent of food sold onboard, according to the Food and Beverage Manager. If Amtrak
reduced spoilage to a similar level, it would reduce losses by more than $1.2 million
annually.

According to officials from customer service and the commissary contractor,
ARAMARK, several factors contribute to food spoilage:

       High onboard stock levels. ARAMARK officials stated that they work together
       with Amtrak to establish train stock levels. However, some trains return most of
       their food and beverage stock to the commissary after each trip. In FY 2012, for
       example, the state supported Vermonter and Ethan Allen Express34 routes
       returned more than 69 percent of their stock; Acela trains returned almost
       68 percent; and 14 of the 15 long distance trains returned 35–57 percent of their
                                                                                        16
                          Amtrak Office of Inspector General
         Food and Beverage Service: Potential Opportunities to Reduce Losses
                            Audit Report OIG-A-2014-001

      stock. By contrast, the Auto Train returns one percent of its stock.35 Customer
      service officials and ARAMARK officials stated that the high return to stock
      rates on most routes occur because service attendants do not want to run out of
      any items. Customer service officials stated that this culture stems from the 1980s
      when lead service attendants were discouraged from running out of stock.

      Backordering. Amtrak’s Service Standards Manual states that lead service
      attendants may order more stock for their trains when additional supplies are
      needed—a process called backordering. However, because of the culture of not
      running out of stock, some lead service attendants backorder too much stock,
      which can lead to spoilage, according to customer service and ARAMARK
      officials. Amtrak’s Service Standards Manual states that backorders should be
      approved by a manager whenever possible, but there is no standard process for
      obtaining supervisory approval beforehand, according to customer service
      officials. Further, Amtrak’s inventory management system lacks the capability to
      track instances of supervisory approval, or the reasons for backorders. Without a
      system of prior approval or the ability to track why backorders occurred,
      accountability over backorders is limited.

      Acela first class order time. Food is ordered based on booked ridership up to 24
      hours before a train’s departure, according to customer service officials.
      However, Acela customers frequently make last minute booking changes, which
      makes accurate purchasing challenging, according to customer service officials.

One railroad reduces spoilage by selling food reaching its expiration date at the end of
trips at reduced prices. The Northern New England Passenger Rail Authority, which
manages the state supported Downeaster,36 reduces the price of food reaching its
expiration date, according to the Executive Director. One hour before the last daily trip
reaches its final destination, the food and beverage attendant makes an announcement
that certain items are being sold at reduced prices.

Route managers and customer service officials told us that they do not use this practice.
The Chief of Customer stated that before this practice could be adopted, a point of sale
system must be deployed that tracks the time when the items are sold. In addition,
                                                                                       17
                          Amtrak Office of Inspector General
         Food and Beverage Service: Potential Opportunities to Reduce Losses
                            Audit Report OIG-A-2014-001

policies must be developed that specify which items can be sold at reduced prices and
when they can be sold. As previously mentioned, business operations officials are
working to implement an automated point of sale system on all café cars, but delays
from the point of sale contractor have prevented needed software updates, according to
customer service and business operations officials. The last software update was
delivered in August 2013. Business operations officials plan to test the new software
during fall 2013 and to pilot a cashless sales system in early 2014.

Sleeper Passengers

Sleeper car passengers’ transportation and meals are included in their ticket price.
However, when establishing the price of sleeper tickets, the Marketing department does
not consider the cost of providing food and beverage services, according to Marketing
officials. They set ticket prices based on an assessment of customer demand and price
sensitivity.

Other railroads consider the cost of food and beverages in establishing their ticket
prices. For example, officials from two private railroads—the Great Southern Rail in
Australia and the Rocky Mountaineer in Canada—stated that they set ticket prices to
recover the costs of their food and beverage service. To accommodate riders with
different preferences, both railroads offer three levels of service. Amtrak offers two
levels of service on long distance trains: coach (which does not include meals) and
sleeper. Although there are limits to how much more Amtrak can charge customers
without adversely affecting total revenue, opportunities may exist to increase the price
of sleeper tickets to cover costs.

CONTRACTING FOR FOOD AND BEVERAGE SERVICES WOULD
HAVE SIGNIFICANT WORKFORCE AND FINANCIAL IMPLICATIONS
Contracting for food and beverage services would have significant implications for the
workforce; however, the financial benefits could be significant. In assessing whether to
contract for onboard food and beverage services, Amtrak must weigh certain qualitative
factors, such as the safety and security responsibilities of onboard personnel, and the
possibility of labor unrest. Nevertheless, the financial benefits of contracting could be
significant. Comparing Amtrak’s labor and benefit costs for onboard food and beverage
personnel to the costs of railroads that contract for food and beverage services, we
estimate that contracting could potentially reduce labor costs by $51.4 million to $60.5
                                                                                        18
                          Amtrak Office of Inspector General
         Food and Beverage Service: Potential Opportunities to Reduce Losses
                            Audit Report OIG-A-2014-001

million annually.37 These potential labor cost reductions could be affected by the
applicability of various railroad labor statutes such as Railroad Retirement, and railroad
workers’ compensation to a third party contractor. If the third party contractor is
subject to the above taxes, the estimated labor savings would be reduced by about
$3.5 million to $5.1 million.

Amtrak Can and Has Contracted for Food and Beverage Services
Amtrak has the authority to contract for its food and beverage service.38 It has used this
authority on two occasions:

       In 1999, Amtrak contracted its commissary operations, which affected
       approximately 330 union members, according to the Leader, Labor Relations.
       Amtrak negotiated severance pay for the affected employees. The Leader stated
       that management believed that commissary operations constituted a gray area
       under the authority to outsource food and beverage service since the warehouses
       stored some items not used for the food and beverage service; as a result,
       management decided to negotiate with the union. However, Amtrak has the
       clear legal authority to contract its food and beverage service. This authority was
       also included in the current labor agreement. The Leader noted that, while not
       required, management could decide to offer severance packages to affected
       employees.

       In 2004, Amtrak contracted with Subway restaurants to provide food and
       beverage services on the state supported Empire Service, according to
       Operations officials.39 This service had previously been eliminated on this route
       as a cost savings measure, according to senior Amtrak officials. The officials
       noted that the Subway franchise paid a small amount to lease the café car, but
       ended this service after only four days because of protests by Amtrak union
       employees.
                                                                                      19
                          Amtrak Office of Inspector General
         Food and Beverage Service: Potential Opportunities to Reduce Losses
                            Audit Report OIG-A-2014-001

Other Railroad Experience in Contracting for Food and Beverage Services
We identified several business models in the railroad industry for contracting food and
beverage services. Although these models do not provide a direct comparison to
Amtrak’s food and beverage service, they are generally similar. They can provide useful
information for identifying and considering ways to reduce food and beverage service
losses:

       The Downeaster, a state supported Amtrak route in New England, has
       contracted for its entire food and beverage service since the railroad’s inception
       in 2001, according to the railroad’s Executive Director. The contractor operates
       one café car, serving sandwiches, snacks, and beverages, staffed by one onboard
       employee. The longest trip is almost 3½ hours one way. The contractor provides
       supplies, food preparation, loading, management, and onboard sales and service.
       Amtrak owns the food service car and equipment.

       The Alaska Railroad is a state owned freight and passenger railroad. According
       to the Vice President of Business Development, the Alaska Railroad contracts for
       its entire food and beverage service, including supplies, food preparation,
       loading, management, and onboard sales and service. The longest route runs
       between Anchorage and Fairbanks and takes about two days round trip.
       According to the Vice President of Business Development, the railroad operates
       one single level café car serving sandwiches, snacks, and beverages, staffed by
       one employee year round. During the high season, the railroad operates two
       double level dining cars (each with four onboard employees, two contracted
       chefs and one manager) plus one single level café car. The Alaska Railroad owns
       the food service cars and equipment.

       The Rocky Mountaineer, a private railroad in Canada, contracts for onboard
       chefs who prepare the food, and also for food supply and loading, according to
       the Manager of Onboard Operations. The Rocky Mountaineer’s employees serve
       the food. The Onboard Operations Manager stated that the longest route that
       contracted employees work is about four days, and the service runs from April to
       October. The Rocky Mountaineer owns the food service cars and equipment.

Possible Qualitative and Quantitative Factors
As part of the decision making process to contract for food and beverage services,
Amtrak would need to assess certain qualitative factors. Onboard service employees
                                                                                        20
                          Amtrak Office of Inspector General
         Food and Beverage Service: Potential Opportunities to Reduce Losses
                            Audit Report OIG-A-2014-001

play an important safety and security role. According to a union representative,
onboard employees are usually the first responders for emergencies in remote locations,
and frequently are an important point of contact for riders. According to the Director of
Operating Practices, Amtrak’s onboard employees receive 21 hours of initial training in
safety and emergency preparedness, including first aid, CPR, and safety rules. Every
two years thereafter, employees receive approximately eight hours of refresher training
in security and emergency preparedness. By comparison, we were told that contracted
employees for the Rocky Mountaineer receive 24 hours of safety and first aid training,
which is repeated annually.

Also, labor unrest could arise from contracting for food and beverage service. Onboard
employees are represented by three unions,40 which also represent reservation agents,
ticket agents, and baggage personnel.

Amtrak would also need to assess quantitative factors that could affect implementation
costs, such as the applicability of railroad labor statutes. Amtrak could incur additional
costs if it is determined that a third party entity and its employees providing food and
beverages aboard its trains are covered by the Railroad Retirement Act.41 Usually, the
Railroad Retirement Board (RRB) makes this determination, using a broad
interpretation of the two statutes. In April 2007, for instance, the U. S. Court of Appeals
for the District of Columbia upheld an RRB judgment that the American Orient Express
Railway Company42 was a rail carrier, and thus was a covered employer liable for
contributions under the Railroad Retirement Act and Railroad Unemployment
Insurance Act.43 Similarly, issues may arise concerning whether employees of a vendor
are considered employees of the railroad rather than the contractor for purposes of
application of liability under the Federal Employers’ Liability Act (FELA).44 The FY 2013
taxes for Railroad Retirement are 12.6 percent of wages; the taxes for FELA are 5.39
                                                                                                           21 
                            Amtrak Office of Inspector General
           Food and Beverage Service: Potential Opportunities to Reduce Losses
                              Audit Report OIG-A-2014-001

percent of wages. If the third party is subject to these taxes, the potential labor savings 
would be reduced by about $3.5 million to $5.1 million.45   
                                                 
In addition, Amtrak’s costs could change if it is determined that a third‐party entity and 
its employees providing food and beverages aboard its trains are covered by the 
Railroad Unemployment Insurance Act.46 Payment of Railroad Unemployment 
Insurance taxes by a contractor could increase or decrease its costs depending on an 
employee’s state of residence, state tax caps, and reporting requirements. 
Further, because Amtrak employees have traditionally performed food and beverage 
work, there are also issues concerning whether contract employees would be covered 
by the Railway Labor Act.47 Answering this question may depend on the level of control 
and supervision that Amtrak exercises over the contractor and its employees, and other 
factors. 
 
Finally, according to a Law department official, Amtrak is required to maintain liquor 
licenses in each state and locality that trains operate. A contractor would likely have to 
obtain their own liquor licenses. Amtrak spend about $88,000 per year for these licenses, 
not including the administrative costs of researching applicable state and local laws. 
 
Significant Financial Impact to Contracting Food and Beverage Services 
Contracting for onboard food and beverage service could have a significant financial 
impact. Labor rates for food and beverage personnel on the three railroads we reviewed 
are significantly lower than Amtrak’s. According to Downeaster and Alaska Railroad 
officials, hourly labor rates for contracted staff, including servers and chefs, on those 
two railroads ranged from $7.75 to $13.00, with no employee benefits. In FY 2012, 
hourly labor rates for contracted chefs on the Rocky Mountaineer averaged $14.70, 
including limited benefits. In FY 2012, Amtrak paid onboard employees an average of 
$41.19 per hour, including full benefits.48 For a comparison of average labor costs, see 
Table 3. 

45	The	FY	2013	rates	for	Railroad	Unemployment	Insurance	taxes	range	from	0.65	percent	to	12	percent	on	

monthly	compensation	up	to	$1,405.	The	2013	state	unemployment	tax	rates	range	from	0.0	percent	in	Iowa	
to	13.5	percent	in	Maryland;	caps	on	covered	wages	vary	from	$7,000	to	$38,900.	
46	45	U.S.C.	Section	351,	et	seq.	
47	45	U.S.C.	§	151et	seq.	

48		Labor	rate	based	on	the	average	hourly	rate	plus	hourly	benefit	rate	for	the	highest	wage	position	(lead	
service	attendant)	and	lowest	wage	position	(service	attendant).	Amtrak	benefits	include	medical	insurance,	
railroad	retirement,	post‐employment	benefits,	dental	insurance,	disability	insurance,	life	insurance,	
unemployment,	railroad	workers	compensation	and	administrative	fees.	The	Rocky	Mountaineer’s	benefits	
include	only	medical	insurance.	
                                                                                                           22
                            Amtrak Office of Inspector General
           Food and Beverage Service: Potential Opportunities to Reduce Losses
                              Audit Report OIG-A-2014-001

Table 3. Average Labor Costs for Amtrak and Railroads That Contract
                  for Food and Beverage Services
                                                         Average Labor Costsa
Category                                                       (FY 2012)
                                   Downeaster              Alaska        Rocky                      Amtrak
                                                          Railroad Mountaineer
Hourly wageb                               $10.00           $10.38       $14.10                      $25.54

Hourly benefitsc                          ––                 ––                    $0.60             $15.65

Hourly wage, plus                          $10.00             $10.38              $14.70             $41.19
benefits
Monthly salary,                            $1,800             $1,868              $2,646             $7,414
plus benefitsd
Annual salary,                           $21,600             $22,410            $31,748            $88,970
plus benefitse
                                                       Estimated Labor Savings
Category
                                   Downeaster               Alaska      Rocky                       Amtrak
                                                          Railroad Mountaineer
Annual labor costsf                 $19,410,000        $20,138,000 $28,529,000                $79,951,000

Difference between                  $60,541,000        $59,813,000         $51,421,000                   N/A
Amtrak & other railroads
Source: Amtrak OIG analysis of Downeaster, Alaska Railroad, Rocky Mountaineer, and Amtrak FY 2012
labor data.
Notes:
a
  Hourly wage and benefits do not include overtime.
b
  Hourly wage for Downeaster, Alaska Railroad, and Rocky Mountaineer is the average of the lowest and
highest wage rates of onboard employees. For Amtrak, the hourly wage is the weighted average of three
rates in effect in FY 2012: those starting on July 1, 2011, January 1, 2012, and July 1, 2012. We then
averaged the highest wage position (lead service attendant) and lowest wage position (service attendant).
c
  Hourly benefits for Amtrak is the average benefit rate for the highest wage position (lead service
attendant) and lowest wage position (service attendant), weighted by the three wage rates in effect in FY
2012. According to a Finance department official, these benefits include medical insurance, railroad
retirement, post-employment benefits, dental insurance, disability insurance, life insurance,
unemployment, railroad workers compensation (FELA), and administrative fees. Collectively, these
benefits added 55.98 to 63.03 percent to FY 2012 hourly wage rates. According to a Rocky Mountaineer
official, hourly benefits for the Rocky Mountaineer are the average paid for Culinary Employee Medical
Service Plan costs.
d
  Based on 180 hours worked per month under Amtrak work rules for full-time, agreement employees.
e
  Annual salary plus benefits is monthly salary plus benefits multiplied by 12. All figures are estimates, not
actuals. For Amtrak, actual annual salary plus benefits is higher due to overtime, according to the Chief of
Customer Service.
                                                                                                           23
                            Amtrak Office of Inspector General
           Food and Beverage Service: Potential Opportunities to Reduce Losses
                              Audit Report OIG-A-2014-001
f
 Annual labor costs is annual salary plus benefits multiplied by 906 regular and 283 on-call onboard
service employees on long-distance and Northeast Corridor trains, engaged in food and beverage
activities. We did not include employees on state-supported routes because, according to a Finance
department official, their wages are subsidized by the states, and contracting their services would have
no effect on Amtrak’s direct labor costs.



IMPROVED BUSINESS PERFORMANCE INFORMATION
ESSENTIAL TO EFFECTIVELY MANAGING FOOD AND
BEVERAGE SERVICE
Route managers and customer service officials do not have adequate business
performance information to efficiently and effectively manage the food and beverage
service. Consistent with Amtrak’s strategic plan, the company plans to establish six
business lines—including long distance, state supported, and Northeast Corridor
services. It plans to establish profit and loss accountability for each business line.
However, Amtrak does not have adequate labor cost and revenue data to evaluate the
financial performance of the food and beverage service within each business line. A
senior Amtrak official stated that a working group has been established to address these
and other business line financial management issues.

In addition, Amtrak lacks adequate business information to efficiently and effectively
manage the food and beverage service. Customer service officials are attempting to
implement an automated point of sale system to collect this information. However,
contractor performance issues have delayed the system’s implementation, according to
customer service and business operations officials.

Lack of Adequate Data on Cost, Revenue, and Performance

Route managers and customer service officials do not have adequate labor cost and
revenue data to effectively manage the food and beverage service. Best practices show
that financial data should be collected and compiled at the lowest meaningful operating
level. Because some Amtrak trains run seven days a week with unique ridership
characteristics by day, the lowest meaningful operating level is each train and food
service car, by departure date. Although food and beverage revenue and cost data is
available system wide, it is not available at the level of individual food service cars or
by departure date, as shown in Table 4.
                                                                                                     24
                           Amtrak Office of Inspector General
          Food and Beverage Service: Potential Opportunities to Reduce Losses
                             Audit Report OIG-A-2014-001

       Table 4. Availability of Food and Beverage Financial Data by
                              Operational Level
Operational Level        Revenues                                  Costs
                                           Labor                                       Commissary
                                          Wages            Labor
                                         & Benefits       Supporta        Food
System-Wide               Available       Available       Available     Available       Availableb

Routec                    Available       Available       Availablee    Available       Availablef

Train, by                 Limited         Available,      Availablee    Available       Availablef
Departure Dated          Availability      but not
                                        calculated by
                                          departure
                                            date
Food Service Car,         Limited        Unavailable      Availablee    Available       Availablef
by Departure Date        Availability
Source: Amtrak OIG analysis of Amtrak data and officials’ statements.
Notes:
a
  Consists of crew meals, crew hotels, uniforms, training, and some crew base costs
b
  Actual food costs are tracked and available for each of the 11 commissaries.
c
  There are 44 different routes (not including special trains).
d
  More than 300 trains operate each day.
e
  These costs are allocated.
f
  These costs are allocated based on the number of trains served by each commissary.


Limited Availability of Revenue Data at the Train Level
Amtrak’s food and beverage revenue data comes from the Warehouse Inventory
Management System.49 According to a Finance official, the system assigns inventory
only to the first train that lead service attendants work in a given shift. As a result,
revenue data is not consistently recorded against the train on which it was received. If a
service attendant rides two or more trains during one work trip without returning to
the commissary, revenues would be recorded only to the first train. The second, third,
and fourth trains are recorded as having no revenue. Because revenues are not regularly
captured by train, customer service officials and route managers cannot accurately
evaluate financial performance at the train or food car level, or by the departure date.

Because revenues are not regularly captured by train, revenue is aggregated by route.
However, the number of trains operating on a route varies from 2 to 43 trains. For
                                                                                          25
                          Amtrak Office of Inspector General
         Food and Beverage Service: Potential Opportunities to Reduce Losses
                            Audit Report OIG-A-2014-001

example, the Northeast regional trains are considered one route for data reporting
purposes, but up to 43 Northeast regional trains operate every weekday. Each train has
its own café car. All revenues from all Northeast regional trains are aggregated, making
it impossible to isolate train by train financial performance. Likewise, revenue from as
many as 33 Acela trains is also aggregated. According to revenue management officials,
only aggregate revenue data will be available until a point of sale system is established
that can generate accurate sales data by train.

Labor Cost Data Not Available By Train and By Departure Date
According to Finance department officials, onboard labor costs consist of wages,
benefits, and some management expenses. According to a Labor Management System
manager, wages and benefits are actual costs; they are available from the Labor
Management System at the train level.50 However, wages and benefits are not recorded
by the departure date of individual trains. Thus, when two or more like numbered
trains are en route on the same date—which occurs with multi day trains that depart
daily—managers cannot isolate the food and beverage wages and benefits for one of
those trains.

For example, train number 8, the Empire Builder, takes about 47 hours to travel from
Seattle to Chicago; however, because the train departs in the evening, its trip spans 3
calendar days. Therefore, three train number 8s are en route every day: one that
recently left Seattle, one that is mid route, and one that is approaching Chicago. The
Labor Management System does not track data by each individual train and by
departure date. To identify employee wages and benefits for an individual train by
departure date would require modifying the Labor Management System software.

Commissary and Labor Support Costs Are Allocated
According to Finance department officials, the Performance Tracking system tracks
costs for the 11 commissaries. Commissary costs are allocated by route or train based on
the number of trains supported by each commissary. Labor support costs, which
include other management expenses, are tracked by cost centers; these costs are also
allocated. In March 2013, DOT OIG reported that this practice is systemic, noting that
Amtrak’s business practices do not require collecting detailed cost data. About 20
percent of company wide costs are assigned and the remaining 80 percent is allocated.
This practice reduces the precision of performance reporting and the reliability of
                                                                                      26
                           Amtrak Office of Inspector General
          Food and Beverage Service: Potential Opportunities to Reduce Losses
                             Audit Report OIG-A-2014-001

information used to make operational decisions. DOT OIG also reported that other
railroads assign as much as 80 percent of their costs.51

Lack of Point of Sale Information
Amtrak’s food and beverage accounting process lacks the capability to generate the
business information needed to efficiently and effectively run the food and beverage
service. We noted that four of the railroads and both cruise lines we contacted use
automated point of sale systems. Two of the railroads use these systems to capture the
time of every individual sale, which Amtrak does not collect. Without this data,
managers cannot align staffing with peak customer demand.52 As previously discussed,
customer service officials are working to implement an automated point of sale system.


CONCLUSIONS
Our work showed that over the last several years, Amtrak has reduced food and
beverage losses. We also identified a number of opportunities to further reduce losses.
Some actions could be taken to improve the existing business model; however, they
would not substantially reduce overall operating losses. Changing the business model
can yield substantial savings. Contracting for onboard food and beverage services could
reduce labor costs, and in turn the operating loss. We recognize that any initiatives in
this area would significantly impact the labor force, which could result in labor unrest
and therefore would have to be carefully considered. Other qualitative and quantitative
factors would have to be addressed. When the significant risk and reward of changes to
business practices are being considered, a commonly used best practice is to pilot the
proposed changes. This gives managers the opportunity to fully weigh the quantitative
and qualitative impact of the changes. In September 2012, we recommended the Vice
President, Operations, direct the chief of Customer Service to develop a five year plan
for reducing direct operating losses. Any pilot programs could be included in this five
year plan.

In addition, Amtrak lacks complete, accurate, and consistent cost and revenue data to
establish profit and loss accountability for its food and beverage service by business
lines. Having this information is also essential to Amtrak’s successful implementation of
its strategic plan to manage by business lines.
                                                                                         27
                          Amtrak Office of Inspector General
         Food and Beverage Service: Potential Opportunities to Reduce Losses
                            Audit Report OIG-A-2014-001

RECOMMENDATIONS
To improve the financial and operational performance of the food and beverage service,
we recommend that the President and CEO direct the Vice President, Operations, to
take the following steps:

   1. Pilot contracting with a third party to provide onboard food and beverage
      services on selected routes to determine the qualitative and quantitative costs
      and benefits of this approach.

   2. Pilot various options to increase efficiency, including:
          Align the food and beverage service model with variations in ridership,
          customer demand, and financial performance for each route. Consider
          amending or eliminating the current sit down dining car service seasonally,
          on selected routes, or on portions of some routes.
          Develop performance measures and metrics for assessing the sales
          performance of service attendants.
          Develop a program to reward high sales performers and counsel or hold
          accountable low sales performers.
          Reduce report times and eliminate the practice of double counting food
          stocks.
          Ensure that the financial impact of complimentary items is considered when
          developing the prices of sleeper car tickets.
          Charge Amtrak employees who are travelling for free on the Auto Train or
          long distance sleeper cars for the cost of the food and beverage services they
          consume.
          Reduce spoilage by clarifying the backordering policy, reducing onboard
          stock levels, reducing the frequency of menu changes, and allowing service
          attendants to sell expiring goods at reduced prices at the end of the trips after
          a point of sale system is fully implemented.

   3. Develop food and beverage cost and revenue data by train, car, and departure
      date to reduce the reliance on allocated financial data when developing financial
      performance reports.

   4. Ensure that the onboard point of sale system includes the capability to provide
      relevant business management data, such as time of sale.
                                                                                       28
                          Amtrak Office of Inspector General
         Food and Beverage Service: Potential Opportunities to Reduce Losses
                            Audit Report OIG-A-2014-001

MANAGEMENT COMMENTS AND OIG ANALYSIS

In commenting on a draft of our report, the President and CEO agreed with the spirit of
our recommendations. He stated that management has developed a high level plan for
eliminating food and beverage losses within the next five years, and that he expects to
finalize a detailed plan by the end of CY 2013. He also noted that, in evaluating each of
our recommendations, Amtrak must assess the impact of any potential changes on
customer satisfaction, ridership, revenue, and the company brand. We believe that
Amtrak’s response generally meets the intent of our recommendations. We will
continue to monitor Amtrak’s specific implementation actions and report as
appropriate.

On October 3, 2013, Amtrak announced that it is moving forward with a five year plan
to eliminate losses on the food and beverage service. According to the announcement,
this plan will include a number of initiatives discussed in this report, such as aligning
dining car staffing with customer demand, establishing metrics to assess the onboard
sales of service attendants, and reducing spoilage. This announcement is consistent with
our prior recommendation to develop such a five year plan.

For a copy of Amtrak’s comments, see Appendix III. Management also provided
technical comments, which we addressed as appropriate in this report.
                                                                                         29
                          Amtrak Office of Inspector General
         Food and Beverage Service: Potential Opportunities to Reduce Losses
                            Audit Report OIG-A-2014-001

                                      Appendix I

                      SCOPE AND METHODOLOGY
This report provides the results of our review to assess actions taken by Amtrak to
reduce operating losses from food and beverage and also to determine whether there
are opportunities to improve financial performance of the food and beverage service,
while providing services to the travelling public. We conducted this audit work from
November 2012 through September 2013 in Washington D.C.; Wilmington, Delaware;
Chicago, Illinois; Los Angeles, California; Seattle, Washington; Lorton, Virginia; and
Miami, Florida.

To determine whether there are opportunities to improve financial performance of the
food and beverage service, we obtained and analyzed information on Amtrak
operations and railway industry best practices for providing food and beverage service.
We interviewed officials from Finance, Marketing and Product Development, Law,
Customer Service, Corporate Labor Relations, and Transportation regarding operations
of Amtrak’s food and beverage service.

We also interviewed officials of domestic and foreign passenger railway to identify best
practices from their organizations that Amtrak can apply to its food and beverage
service operations. We interviewed officials from the Northeastern New England
Passenger Rail Authority (Maine), the Alaska Railroad, and the North Carolina
Department of Transportation. We also interviewed officials from these foreign
railways: Via Rail (Canadian government owned), Country Link (government owned
Rail Corporation of Australia province of New South Wales),53 Great Southern Rail
(privately owned in Australia), and Deutsche Bahn in Germany. We interviewed
officials who represent four cruise lines that attach rail cars to the Alaska Railroad:
Royal Celebrity, which operate together, and Holland America/Princess, which also
operate together.

To assess the costs and benefits of contracting with a third party, we compared labor
rates, benefits, and operational models of three railroads that contract food and
beverage service with those of Amtrak. We also considered other potential cost factors,
such as the Railroad Retirement Act, the Railroad Unemployment Insurance Act, and
                                                                                       30
                          Amtrak Office of Inspector General
         Food and Beverage Service: Potential Opportunities to Reduce Losses
                            Audit Report OIG-A-2014-001

the Federal Employers’ Liability Act. In addition, we considered other qualitative
factors, such as safety and security.

To assess Amtrak’s current commissary operations, we visited and observed Amtrak’s
warehouse operations in Chicago, Los Angeles, Seattle, Miami, and Washington D.C.
Finally, we travelled on 5 of Amtrak’s 15 long distance routes to interview food and
beverage staff, observed operations, and understand the current food and beverage
service model. To determine the financial viability of Amtrak’s current operational
model, we reviewed staffing levels, labor rates, and benefits. We reviewed the adequacy
of financial data for management oversight and decision making purposes. We
reviewed data from the Amtrak Performance Tracking system, Warehouse Inventory
Management System, and Labor Management System.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Internal Controls

Our audit reviewed Amtrak’s management controls to account for costs and revenues
associated with the food and beverage service. We also reviewed the adequacy of
policies, procedures, guidelines, and financial data for managing food and beverage
operations. This report discusses weaknesses in the financial data, policies, procedures,
and guidelines.

Computer-Processed Data

We relied on data from Amtrak’s Finance department, which provided food and
beverage costs and revenues for the Northeast Corridor, state supported routes, and
long distance routes. For Fiscal Year (FY) 2006 through FY 2010, the data came from
Amtrak’s Financial Information System; for FY 2011 and FY 2012, the data came from
Amtrak’s SAP Enterprise Resource Planning system. To verify the accuracy of the data,
we compared two versions of Amtrak’s FY 2010 data—one generated from the Financial
Information System, and one from the SAP Enterprise Resource Planning system. We
                                                                                             31
                          Amtrak Office of Inspector General
         Food and Beverage Service: Potential Opportunities to Reduce Losses
                            Audit Report OIG-A-2014-001

noted some minor differences between the figures, but these differences were not
material to the results of our analysis.

We also obtained Amtrak’s audited financial statements for FY 2006 through FY 2011
and compared them with data provided by Finance officials. This comparison identified
some minor procedural limitations with the data; however, because the data differences
and limitations we identified were not material, we concluded that the data was
sufficiently reliable to be used in meeting our audit objectives.



Prior Audit Reports

The following Amtrak OIG reports are relevant to this audit’s objectives:

      Food and Beverage Service: Initiatives to Help Reduce Direct Operating Losses Can Be
      Enhanced by Overall Plan (Report No. OIG A 2012 020, September 7, 2012).

      Food and Beverage Service: Opportunities Exist to Build on Program Improvement Initiatives
      (OIG T 2012 015, August 2, 2012) [Congressional Testimony].

      Food and Beverage Service: Further Actions Needed to Address Revenue Losses Due to
      Control Weaknesses and Gaps (Report No. E 11 03, June 23, 2011).

These Department of Transportation OIG reports are relevant to this audit’s objectives:

      Amtrak’s New Cost Accounting System is a Significant Improvement but Concerns
      Over Precision and Long Term Viability Remain (Report No. CR 2013 056, March 27,
      2013).

      Analysis of Cost Savings on Amtrak’s Long Distance Services (Report No. CR 2005
      068, July 22, 2005).
                                                                                 32
                          Amtrak Office of Inspector General
         Food and Beverage Service: Potential Opportunities to Reduce Losses
                            Audit Report OIG-A-2014-001

                                        Appendix II

                              Table 5. Long-Distance Routes


Routes                    From                                     Distance (Miles)
Auto Train                Lorton, Virginia–Sanford, Florida                    855
California Zephyr         Chicago–San Francisco                              2,438
Capitol Limited           Washington D.C.–Chicago                              780
Cardinal                  Chicago–New York                                   1,147
City of New Orleans       Chicago–New Orleans                                  934
Coast Starlight           Seattle–Los Angeles                                1,377
Crescent                  New York–New Orleans                               1,377
Empire Builder            Chicago–Portland/Seattle                  2,255(Chi–Port)
                                                                   2,205 (Chi–Sea)
Lake Shore Limited        Chicago–New York/Boston                     959 (Chi–NY)
                                                                    1018 (Chi–Bos)
Palmetto                  New York–Savannah, Georgia                           829
Silver Meteor             New York–Miami, Florida                            1,389
Silver Star               New York–Miami, Florida                            1,532
Southwest Chief           Chicago–Los Angeles                                2,265
Sunset Limited            Los Angeles–New Orleans                            1,995
Texas Eagle               Chicago–Los Angeles                                2,728
 Source: Amtrak route data.
                                                                             34
                        Amtrak Office of Inspector General
       Food and Beverage Service: Potential Opportunities to Reduce Losses
                          Audit Report OIG-A-2014-001

                                   Appendix IV

                             ABBREVIATIONS
CY         Calendar Year

DOT OIG    Department of Transportation Office of Inspector General

FELA       Federal Employers’ Liability Act

FY         Fiscal Year

OIG        Office of Inspector General
                                                                              35
                         Amtrak Office of Inspector General
        Food and Beverage Service: Potential Opportunities to Reduce Losses
                           Audit Report OIG-A-2014-001

                                    Appendix V

                           OIG TEAM MEMBERS
David R. Warren, Assistant Inspector General, Audits

Michael Kennedy, Senior Director

John Marzullo, Auditor in Charge

George Atuobi, Senior Auditor

Kira Rao, Auditor
                                                                                     36 
                          Amtrak Office of Inspector General
         Food and Beverage Service: Potential Opportunities to Reduce Losses
                            Audit Report OIG-A-2014-001

                OIG MISSION AND CONTACT INFORMATION

Amtrak OIG’s Mission         The Amtrak OIG’s mission is to provide independent, 
                             objective oversight of Amtrak’s programs and operations 
                             through audits, inspections, evaluations, and 
                             investigations focused on recommending improvements 
                             to Amtrak’s economy, efficiency, and effectiveness; 
                             preventing and detecting fraud, waste, and abuse; and 
                             providing Congress, Amtrak management, and Amtrak’s 
                             Board of Directors with timely information about 
                             problems and deficiencies relating to Amtrak’s programs 
                             and operations. 



Obtaining Copies of OIG Available at our website: www.amtrakoig.gov.
Reports and Testimony


To Report Fraud, Waste, Report suspicious or illegal activities to the OIG Hotline
or Abuse                (you can remain anonymous):

                             Web:      www.amtrakoig.gov/hotline
                             Phone:    800-468-5469

Congressional and            David R. Warren
Public Affairs               Assistant Inspector General, Audits

                             Mail:     Amtrak OIG
                                       10 G Street, N.E., 3W-300
                                       Washington, D.C. 20002

                             Phone:    202-906-4742
                             E-mail:   david.warren@amtrakoig.gov
